20-6044 lay

SUPREME COURT
UNITED STATES

LUIDGI BENJAMIN,

Petitioner,

 

UNITED STATES OF AMERICA,

Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The above-named Petitioner requests leave to file the attached petition
for a writ of certiorari without prepayment of costs.
He further requests permission to proceed in forma pauperis. Appellant
has previously been granted leave to so proceed in the Circuit Court of

Appeals, under the Criminal Justice Act. See 18 U. S. C. ยง3006A.

ts/ Arza Feldman
Arza Feldman

RECEIVED
SEP 24 2020

E OF THE CLE!
SEEGER courte

       

K

 
